September 3, 2002

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

SUBJECT:      Audit Report - Postal Service’s Corporate Succession Planning Process
              (Report Number LH-AR-02-004)

This report presents the results of our audit of the corporate succession planning
process (Project Number 01JA005LB000). The report responds to a Board of
Governor’s request to evaluate the Postal Service’s succession planning process,
including their efforts to replace experienced Postal Service employees with individuals
from different ethnic backgrounds.

The audit revealed that the Postal Service had established a corporate succession
planning process for filling vacant Postal Career Executive Service positions, and the
process included many features that we identified as best practices for successful
organizations. However, we also found that management of the process could be
improved. Specifically, the Postal Service had not fully documented its corporate
succession planning process or clearly defined how the plan would help meet corporate
strategic goals and address significant changes in the Postal Service business
environment. In addition, the Postal Service could improve its oversight of potential
successors’ executive development and the associated training costs. We also found
the Postal Service had implemented diversity programs into the corporate succession
planning process resulting in a slight increase of some diversity statistics, and little to no
change in others. However, when compared to the civilian labor force and the Postal
Service workforce, women and minority representation at the Postal Career Executive
Service level could be improved.

The report included seven recommendations to Postal Service management that we
believe will improve the corporate succession planning process. Management generally
agreed with our recommendations and the actions taken and planned should correct the
issues identified in this report. Management’s comments and our evaluation of these
comments are included in the report.

The OIG considers recommendations 1 through 7 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective action(s) are completed. These recommendation(s) should not be
closed in the follow-up tracking system until the OIG provides written confirmation that
the recommendation(s) can be closed. We appreciate the cooperation and courtesies
provided by your staff during the audit. If you have any questions or need additional
information, please contact Chris Nicoloff, director, Labor Management, at (703) 248-
2100, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Benjamin P. Ocasio
    Stephen A. Leavey
    Susan M. Duchek
Postal Service’s Corporate                                           LH-AR-02-004
 Succession Planning Process


                          TABLE OF CONTENTS
 Executive Summary                                                    i

 Part I

 Introduction                                                         1

    Background                                                        1
    Objectives, Scope, and Methodology                                1
    Prior Audit Coverage                                              2

 Part II

 Audit Results                                                        3

    Corporate Succession Planning Process Was Established             3

    Management of Corporate Succession Planning Could Be Improved     5
      Succession Planning Process and Plan to Meet Strategic Goals    5
       Not Clearly Defined
      Recommendation                                                  6
      Management’s Comments                                           6
      Evaluation of Management’s Comments                             6

           Corporate Succession Plan Addressed Many Changes in the    6
            Environment
           Conclusion                                                 9
           Recommendations                                           10
           Management’s Comments                                     10
           Evaluation of Management’s Comments                       10

           Improved Oversight Needed of Potential Successors’        10
            Development and Associated Training Costs
           Recommendations                                           12
           Management’s Comments                                     13
           Evaluation of Management’s Comments                       13

    Diversity Programs Were Implemented                              14
    Recommendation                                                   16
    Management’s Comments                                            16
    Evaluation of Management’s Comments                              17

 Appendix A. Scope and Methodology                                   19




                                    Restricted Information
Postal Service’s Corporate                                                  LH-AR-02-004
 Succession Planning Process


 Appendix B. Comparison of the FY 2001 Diversity Statistics of the          21
             Potential Successor Pool to the Executive and
             Administrative Schedule Levels 22-26 and the Postal
             Career Executive Service Workforce

 Appendix C. Comparison of the Diversity Statistics of the Postal Service   22
             Executive and Administrative Schedule Employees
             Promoted to Postal Career Executive Service Positions in
             FY 1999 Through 2001 to the FY 2001 Potential
             Successor Pool

 Appendix D. Comparison of the Diversity Statistics for the Percent of      23
             Postal Career Executive Service Workforce Occupied by
             Women and Minorities FY 1999 Through 2001

 Appendix E. Comparison of the FY 2001 Diversity Statistics of Postal       24
             Career Executive Service Workforce to the Civilian Labor
             Force and Postal Service Workforce

 Appendix F. Management’s Comments                                          25




                                  Restricted Information
Postal Service’s Corporate                                                        LH-AR-02-004
 Succession Planning Process


                                 EXECUTIVE SUMMARY

 Introduction                  This report presents the results of our audit of the Postal
                               Service’s corporate succession planning process. This
                               audit was performed in response to a Board of Governor’s
                               request to evaluate the Postal Service’s succession
                               planning process, including their efforts to replace
                               experienced Postal Service employees with individuals from
                               different ethnic backgrounds. Our overall objectives were to
                               determine whether Postal Service management was
                               effectively managing the corporate succession planning
                               process and to determine whether the Postal Service was
                               implementing diversity programs into the corporate
                               succession planning process.

 Results in Brief              Our audit determined that the Postal Service had
                               established a corporate succession planning process for
                               filling vacant Postal Career Executive Service positions, and
                               the process included many features that we identified as
                               best practices for successful organizations. However, we
                               also found that management of the process could be
                               improved. For example, the Postal Service had not fully
                               documented its corporate succession planning process or
                               clearly defined how the plan would help meet corporate
                               strategic goals. This occurred because the Postal Service
                               believed an informal plan provided flexibility in running the
                               program. The Postal Service may be more effective in
                               achieving desired business results or addressing changing
                               business needs if they documented their process including
                               its relationship to corporate strategic goals.

                               In addition, the Postal Service’s corporate succession plan
                               addressed many of the significant changes in the Postal
                               Service business environment, including the increased
                               competition in the communications and delivery service
                               sectors. However, we found other areas that needed to be
                               addressed, such as, increasing security concerns and an
                               assessment of the size of the potential successor pool
                               based on organizational changes and projected retirements
                               and attrition within the Postal Career Executive Service. By
                               addressing these areas, the Postal Service could more
                               effectively select and develop potential successors to meet
                               current and future leadership needs of the Postal Service.
                               In addition, the number of potential successors needed in
                               the pool could be more accurately determined.


                                                  i
                                       Restricted Information
Postal Service’s Corporate                                                           LH-AR-02-004
 Succession Planning Process



                               Postal Service Headquarters also needs to improve its
                               oversight of potential successors’ executive development
                               and the associated training costs. We found there was no
                               centralized oversight for potential successor development
                               and associated training costs and no centralized information
                               management system. This resulted in Postal Service
                               Headquarters officials not knowing if adequate training was
                               provided to prepare potential successors to compete for
                               Postal Career Executive Service positions.

                               Finally, we found the Postal Service had implemented
                               diversity programs into the corporate succession planning
                               process; however, women and minority representation at
                               the Postal Career Executive Service level could be
                               improved. Specifically, while the Postal Service had
                               identified a pool of potential successors that was
                               representative of the executive and administrative schedule
                               levels 22 to 26, and made selections from the potential
                               successor pool for the Postal Career Executive Service
                               positions that were representative of this pool, these efforts
                               resulted in a slight increase of white female executives and
                               little to no change in minority categories.

 Summary of                    We recommend that management fully document the
 Recommendations               corporate succession planning process, including a clear
                               definition on how the plan will help meet strategic corporate
                               goals. The Postal Service should also periodically
                               revalidate, the executive competency model to ensure it
                               identifies the knowledge and skills needed in potential
                               successors based on the Postal Service’s changing
                               business environment. In addition, a reassessment of the
                               accuracy of the potential successor pool size, based on
                               organizational changes, projected retirements, and attrition
                               is necessary. We also recommend the Postal Service
                               establish a centralized information management system to
                               monitor and analyze potential successor training and
                               associated costs to ensure development needs are met; as
                               well as continue its efforts to identify the barriers that limit
                               improvements in the Postal Career Executive Service
                               diversity statistics, and take the appropriate action to
                               remove the barriers.




                                                  ii
                                       Restricted Information
Postal Service’s Corporate                                                      LH-AR-02-004
 Succession Planning Process



 Summary of                    Management agreed with our recommendation to fully
 Management’s                  document the corporate succession planning process and
 Comments                      stated they will complete this by December 2002. They
                               also agreed to revalidate the Executive Competency Model
                               by June 2003 and periodically assess the need to revalidate
                               the model based on changes to the Postal Service business
                               environment. Also, management agreed to reassess the
                               corporate succession pool size to ensure postal needs and
                               placement opportunities match and to implement a
                               centralized information system to monitor and analyze
                               potential successor training and its associated costs.
                               Management did not believe, however, that they should
                               ensure training is proportionately distributed among
                               successors because individual training needs will vary.
                               Finally they agreed to continue to identify and remove
                               barriers that limit improvements in diversity.

                               Management disagreed with our comparisons of the Postal
                               Career Executive Service workforce to the civilian labor
                               force and Postal Service workforce; and with our
                               “assertions” that “little or no progress” had been made in
                               women or minority representation. They provided statistics
                               to rebut our findings. Management’s comments, in their
                               entirety, are included in Appendix F of this report.

 Overall Evaluation of         Management’s comments to recommendations 1 through 7
 Management’s                  were responsive and the actions taken and planned should
 Comments                      correct the issues identified in this report.




                                                 iii
                                       Restricted Information
Postal Service’s Corporate                                                                           LH-AR-02-004
 Succession Planning Process


                                            INTRODUCTION
    Background                     The Postal Career Executive Service was established
                                   in 1979 and consists of two levels of leadership.
                                   Level 01 executives are appointed by senior-level officers
                                   and include district and bulk mail center managers.
                                   Level 02 senior-level officers are appointed by the
                                   postmaster general and include area vice presidents and
                                   the deputy postmaster general. As of February 2002, the
                                   Postal Service had approximately 768 executive positions
                                   and 41 senior-level officer positions for a total of
                                   809 authorized Postal Career Executive Service positions
                                   Postal Service wide.

                                   The Postal Service’s corporate succession planning process
                                   was initiated in 1994 to identify a diverse pool of potential
                                   successors for Postal Career Executive Service positions
                                   and to promote their development for leadership roles in the
                                   organization. The planning process was also to provide a
                                   mechanism for building diversity into the leadership of the
                                   organization.1

                                   The Postal Service projected that among its employees as
                                   of October 2000; about 36 percent of its executives and
                                   senior-level officers were eligible for regular retirement in
                                   calendar years 2001 and 2002. In addition, the Postal
                                   Service projected that 85 percent of its executives and
                                   senior-level officers would reach retirement eligibility by
                                   calendar year 2010.

    Objectives, Scope,             The overall objectives of the audit were to determine
    and Methodology                whether Postal Service management was effectively
                                   managing the corporate succession planning process and
                                   to determine whether the Postal Service was effectively
                                   implementing diversity programs into the corporate
                                   succession planning process. Our scope and methodology
                                   are discussed in Appendix A.

                                   This audit was conducted from April 2001 through
                                   August 2002 in accordance with generally accepted
                                   government auditing standards. We reviewed management

1
  The Postal Service’s Diversity Development Office was established to build a motivated, productive, and inclusive
workforce. This office focused on diversity in workforce management, promotions, and developmental activities,
including succession planning. These activities have been implemented as part of the methodology for selecting and
developing potential successors to executive positions.



                                                         1
                                              Restricted Information
Postal Service’s Corporate                                                          LH-AR-02-004
 Succession Planning Process


                               controls over the corporate succession planning process
                               and the implementation of diversity programs into the
                               process. Specifically, we reviewed controls designed to
                               ensure the qualifications, development and diversity of
                               potential and actual successors, and the reporting of costs
                               associated with the program. We discussed our
                               conclusions and observations with appropriate management
                               officials and included their comments, where appropriate.

 Prior Audit Coverage          U.S. Postal Service: Diversity in the Postal Career
                               Executive Service (GAO/GGD-00-76, March 2000). This
                               report showed that at the end of fiscal year (FY) 1999,
                               women and minorities represented about 58 percent of the
                               Postal Service’s overall workforce and 35 percent of the
                               Postal Career Executive Service workforce. Similarly, their
                               representation among Postal Career Executive Service
                               executives for each specific women and minority Equal
                               Employment Opportunity category was lower than their
                               representation in the corresponding Equal Employment
                               Opportunity categories in the Postal Service’s overall
                               workforce. Women and minorities occupied 13 (about
                               31 percent) of the 42 senior-level officer positions as of
                               FY 1999.

                               Postal Service management commented that the General
                               Accounting Office (GAO) report reflected the commitment
                               of the Postal Service to foster diversity at all levels of the
                               organization, and that the Postal Service was aware that it
                               could make continuing progress in the representation of
                               women and minorities among its officers and executives.
                               There were no recommendations made in the report.




                                                  2
                                       Restricted Information
Postal Service’s Corporate                                                                         LH-AR-02-004
 Succession Planning Process


                                           AUDIT RESULTS
                                  The audit revealed the Postal Service had established a
                                  corporate succession planning process for filling vacant
                                  Postal Career Executive Service positions; however,
                                  management of the process could be improved. We also
                                  found the Postal Service had implemented diversity
                                  programs into the corporate succession planning process
                                  that resulted in a pool of potential successors that were
                                  representative of the executive and administrative schedule
                                  levels 22 to 26. We also found, selections from the potential
                                  successor pool for the Postal Career Executive Service
                                  positions were representative of that pool. However, when
                                  compared to the civilian labor force and the Postal Service
                                  workforce, women and minority representation at the Postal
                                  Career Executive Service level could be improved.

    Corporate                     Our review found the Postal Service had established a
    Succession Planning           corporate succession planning process in 1994 to identify
    Process Was                   potential successors to fill Postal Career Executive Service
    Established                   vacancies and to promote their development for leadership
                                  roles in the organization. The planning process included
                                  many features that we identified as best practices for
                                  successful corporations.2 These included:

                                      •    Identifying potential successors.

                                      •    Evaluating and training potential successors.

                                      •    Selecting employees to fill Postal Career Executive
                                           Service positions.

                                  Each year since 1994, Postal Service vice presidents
                                  identified and prepared a list of the potential successors
                                  recommended for inclusion in the corporate succession
                                  pool. These potential successors were generally selected
                                  from the Postal Service’s executive and administrative
                                  schedule levels 22 through 26. The headquarters
                                  Corporate Personnel Management office then scheduled
                                  meetings between the vice presidents, the postmaster
                                  general and the vice president, Diversity Development, to
                                  discuss each potential successor’s qualifications, and to

2
 We used the American Productivity & Quality Center report, Leadership Development: Building Executive Talent,
1999, to determine many of these best practices.



                                                        3
                                             Restricted Information
Postal Service’s Corporate                                                                             LH-AR-02-004
 Succession Planning Process


                                    make selections of the successors who would enter the
                                    pool. Arrangements were also made for the approved
                                    potential successors to receive an executive assessment of
                                    their technical skills and competency levels; and based on
                                    the results, their development and training needs were
                                    updated. Many potential successors were also scheduled
                                    to attend the Postal Service’s Advanced Leadership
                                    Program.3

                                    We found, with few exceptions, that from FYs 1999 through
                                    2001, Postal Career Executive Service positions were filled
                                    from the potential successor pool and not from outside
                                    the agency. For example, of the 65 vacant positions in
                                    FY 2001, 60 selections were made from the pool. Table 1
                                    shows the number of positions filled for the 3-year period
                                    and the source for those positions.

                                    Table 1. Postal Career Executive Service Positions Filled for
                                             FYs 1999 through 2001.

                                     Fiscal    Total Number of            Filled from        Filled from Outside
                                      Year     Positions Filled4        Successor Pool       the Postal Service
                                     2001             65                       60                      5
                                     2000             86                       85                      1
                                     1999             71                       69                      2




3
  The Advanced Leadership Program is a three phased program consisting of 4-weeks of classroom training and
15 credits of college courses designed to provide the knowledge, skills, and experience necessary for participants to
positively impact and support future Postal Service management decisions and direction. The program seeks to
develop a highly competent managerial base from which future organizational leaders would emerge.
4
  Postal Career Executive Service positions exclude vacancies filled in the Postal Service Law Department and the
Postal Service’s Office of Inspector General (OIG).



                                                          4
                                               Restricted Information
Postal Service’s Corporate                                                       LH-AR-02-004
 Succession Planning Process



 Management of                 Although the Postal Service had established a corporate
 Corporate                     succession planning process for filling Postal Career
 Succession Planning           Executive Service positions, we found management of the
 Could Be Improved             process could be improved in the following areas:

                                  •   Documentation of the planning process and how it
                                      will help meet strategic goals.

                                  •   Addressing significant changes in the Postal Service
                                      business environment.

                                  •   Oversight of potential successors’ development and
                                      associated training costs.

 Succession Planning           The Postal Service had not fully documented its corporate
 Process and Plan to           succession planning process or clearly defined how the plan
 Meet Strategic Goals          would help meet corporate strategic goals. Some elements
 Not Clearly Defined           of the process were documented in headquarters and field
                               office correspondence, a 15-minute video shown to potential
                               successors, and a PowerPoint presentation used for
                               management briefings. However, to fully understand the
                               complete process, we had to interview several Postal
                               Service officials. For example, officials had to tell us how
                               the process would be measured to determine its success
                               because this information was not contained in any of the
                               documents describing the process.

                               Although there were no established criteria requiring the
                               Postal Service to document their corporate succession
                               planning process, we found that companies identified as
                               best practice partners by the American Productivity &
                               Quality Center best practices report, had developed written
                               plans. In addition, the Office of Personnel Management
                               required federal agencies to clearly define and understand
                               long-term goals to meet institutional leadership needs.

                               According to the manager, Corporate Personnel
                               Management, the corporate succession planning process
                               was not documented as a policy or procedure because an
                               informal plan provided flexibility in running the program.
                               The manager also said that a more formal plan would
                               restrict the ability of vice presidents to respond to the
                               individualized needs of potential successors.




                                                  5
                                       Restricted Information
Postal Service’s Corporate                                                         LH-AR-02-004
 Succession Planning Process


                               We believe, however, that a fully documented planning
                               process and a clear definition of how the plan contributes to
                               the Postal Service meeting its corporate strategic goals,
                               would help the Postal Service more effectively achieve
                               desired business results and address changing business
                               needs. In addition, with a documented understanding of
                               how the plan would help meet strategic goals, the plan’s
                               effectiveness in selecting, developing, and placing potential
                               successors could be more effectively measured and
                               enhance accountability for the corporate succession
                               planning process.

 Recommendation                We recommend the senior vice president, Human
                               Resources:

                                  1. Fully document the corporate succession planning
                                     process to include applicable performance measures,
                                     and a clear definition on how the plan will help meet
                                     corporate strategic goals.

 Management’s                  Management agreed with the finding and recommendation.
 Comments                      They stated the corporate succession planning process was
                               informally documented; however a more formal description
                               of the program should be written. Management expects to
                               have the process formally documented by December 2002.

 Evaluation of                 Management’s planned actions are responsive and meet
 Management’s                  the intent of our recommendation.
 Comments

 Corporate Succession          The Postal Service’s corporate succession plan addressed
 Plan Addressed Many           many of the significant changes that have occurred in the
 Changes in the                Postal Service business environment. We identified,
 Environment                   however, the following areas that also need to be
                               addressed:

                                  •   Increasing security concerns.

                                  •   Assessing the effect of organizational changes on the
                                      number of potential successors.

                                  •   Projecting Postal Career Executive Service
                                      retirements and attrition.




                                                  6
                                       Restricted Information
Postal Service’s Corporate                                                                             LH-AR-02-004
 Succession Planning Process



                                   By addressing these areas, Postal Service management
                                   could more effectively select and develop potential
                                   successors to meet current and future leadership needs of
                                   the Postal Service. In addition, the number of potential
                                   successors needed in the pool could be more accurately
                                   determined. For example, if the current successor pool is
                                   too large, unnecessary costs for developmental training may
                                   be incurred.

                                   Postal Service business environment. In accordance
                                   with best practices identified in the American Productivity &
                                   Quality Center report, the Postal Service’s corporate
                                   succession planning process addressed many of the
                                   changes in the Postal Service business environment. For
                                   example, according to the April 2002 Postal Service’s
                                   Transformation Plan,5 the Advanced Leadership Program
                                   was continually refreshed and kept current with both internal
                                   and external criteria. In addition, we found the Executive
                                   Competency Model6 generally addressed the need for
                                   potential successors to have the knowledge and skills
                                   needed to address competition in the communications and
                                   delivery service sectors, significant increased public use of
                                   e-mail, and the financial decline resulting from rising costs
                                   to maintain the Postal Service network.7 In this respect, the
                                   competency model was aligned with the Postal Service’s
                                   FY 2001 – 2005 Strategic Plan, which addressed the same
                                   issues.

                                   Increasing Security Concerns. We found however, that
                                   the competency model had not been revalidated since its
                                   development in 1998, despite other significant changes in
                                   the Postal Service business environment. For example, in
                                   their April 2002 Transformation Plan, the Postal Service
                                   identified a list of fundamental changes that it needed to
                                   address. One of these changes, associated with the
                                   terrorist and biohazard incidents that occurred in September
                                   and October 2001, respectively, was the identification of
5
  The Postal Service business environment has undergone significant changes, including a financial decline as a
result of costs rising faster than revenue. In response to these changes the Postal Service issued the Transformation
Plan to Congress, identifying the steps that must be taken to address the challenges it faces both now and in the
future.
6
  The Postal Service’s Executive Competency Model contains 31 core competencies that the Postal Service has
identified as the skills and attributes its executives should have. This model is used to evaluate individuals against
the requirements for executive positions and was used in the development of the Advanced Leadership Program.
7
  Other changes included deregulation of foreign Postal Service administrations, changing workplace loyalties and
demographics, dramatic planned cost cutting and downsizing, and changes in legislation and regulations.



                                                          7
                                               Restricted Information
Postal Service’s Corporate                                                                           LH-AR-02-004
 Succession Planning Process


                                   increasing security concerns that will require expensive and
                                   sophisticated countermeasures. Our review of the
                                   competency model found that it did not specifically address
                                   the need for executives to have the knowledge and skills
                                   needed to respond quickly and adequately to national crisis
                                   situations.

                                   The American Productivity & Quality Center best practices
                                   report indicates that best practice organizations must
                                   ensure that their competencies are kept up to date through
                                   internal and external research. In addition, given the
                                   transformation the Postal Service is undertaking, additional
                                   opportunities may exist to update or refine the competency
                                   model to evaluate current and future Postal Service leaders.
                                   We believe updated competencies that reflect the future
                                   needs of the Postal Service will help ensure that executives
                                   have the knowledge and skills necessary to provide the
                                   strong and committed leadership needed to forge a
                                   fundamentally new business model for the Postal Service.

                                   A headquarters human resource specialist told us the
                                   executive competency model has not changed since its
                                   development because the foundation of the model was
                                   considered strong, allowed flexibility, and conformed to the
                                   federal government Senior Executive Service8 competency
                                   model. The specialist also stated that all potential
                                   successors receive crisis management training and that the
                                   Postal Service’s response to the anthrax and bio-terrorism
                                   incidents last September and October 2001, showed how
                                   effective leaders were at resolving problems.

                                   Assessing the effect of organizational changes on the
                                   number of potential successors and projecting
                                   retirements and attrition. The Postal Service had not
                                   assessed the impact the FY 2002 reorganization and the
                                   projected retirements and attrition in Postal Career
                                   Executive Service positions, would have on the potential
                                   successor pool (approximately 1,500 at the end of
                                   FY 2001). The Office of Personnel Management directs
                                   federal agencies to measure workforce trends and
                                   predictions when developing their succession pool.


8
 The federal government’s Senior Executive Service is the equivalent of the Postal Service’s Postal Career
Executive Service and includes most managerial, supervisory, and policy positions classified above General
Schedule grade 15 or equivalent positions in the executive branch of the federal government.



                                                        8
                                             Restricted Information
Postal Service’s Corporate                                                        LH-AR-02-004
 Succession Planning Process


                               In September 2001, the postmaster general announced that
                               30 percent of the senior-level officer positions would be
                               eliminated. Since that time, the 11 Postal Service
                               geographic areas of operation have been consolidated
                               into 9; the headquarters Sales and Marketing operations
                               have been restructured; and 58 Postal Career Executive
                               Service positions have been eliminated.

                               In addition, we determined that as of January 2002, the
                               average age of employees in Postal Career Executive
                               Service positions was about 55 years old; and the average
                               age of potential successors was about 48. This indicates
                               that many executives and senior-level officers, and those
                               who could succeed them, are at retirement age, or will
                               reach retirement age within 7 years, respectively. However,
                               the Office of Personnel Management reported in 1999 that
                               potential successors and executives in the federal
                               government stay on average 3.4 years past their eligible
                               retirement date. We believe this information may have an
                               impact on Postal Service retirement projections.

                               According to Postal Service officials, the organization had
                               not assessed the impact of the reductions in Postal Career
                               Executive Service positions because recent changes in the
                               Postal Service organization and the number of Postal
                               Career Executive Service positions had not been finalized.
                               The manager, Corporate Personnel Management, also
                               stated that a large potential successor pool was needed to
                               ensure sufficient numbers of qualified candidates were
                               available to select from. The manager further stated the
                               postmaster general could reorganize the Postal Service
                               again and increase the number of Postal Career Executive
                               Service positions.

 Conclusion                    The Postal Service’s projection that 85 percent of its Postal
                               Career Executives Service employees would reach
                               retirement eligibility by calendar year 2010 should be an
                               incentive for the Postal Service to reassess the corporate
                               succession planning process to identify improvements. We
                               believe improvements made prior to this potential wave of
                               retirements could have an immediate, significant, and
                               positive impact on the quality and diversity of leaders who
                               will be needed to address the challenges the Postal Service
                               faces both now and in the future.




                                                  9
                                       Restricted Information
Postal Service’s Corporate                                                       LH-AR-02-004
 Succession Planning Process


 Recommendations               We recommend the senior vice president, Human
                               Resources:

                                  2. Revalidate the Executive Competency Model to
                                     ensure it identifies the knowledge and skills needed
                                     in potential successors to operate in the Postal
                                     Service’s changing environment.

                                  3. Periodically assess the need to revalidate the
                                     Executive Competency Model based on changes to
                                     the Postal Service business environment.

                                  4. Reassess the accuracy of the potential successor
                                     pool size based on organizational changes and
                                     projected retirements and attrition, and adjust the
                                     size as needed.

 Management’s                  Management agreed with the findings and
 Comments                      recommendations, and stated the Executive Competency
                               Model would be updated by June 2003, to reflect the
                               competencies needed to develop future leaders. They also
                               agreed to assess the Executive Competency Model based
                               on changes to the Postal Service business environment and
                               that this would be an ongoing effort. Management also
                               agreed, on an ongoing basis, to review the potential
                               successor pool size to ensure Postal Service needs and
                               placement opportunities match.

 Evaluation of                 Management’s planned actions are responsive and meet
 Management’s                  the intent of our recommendations.
 Comments

 Improved Oversight            Postal Service Headquarters needs to improve its oversight
 Needed of Potential           of potential successors’ executive development and the
 Successors’                   associated training costs. We found there was no
 Development and               centralized oversight or information management system to
 Associated Training           determine if: (1) potential successor development needs
 Costs                         were met, (2) training was proportionately distributed among
                               successors, and (3) overall business goals were achieved.

                               Headquarters officials were also unable to identify all the
                               training costs associated with the development of potential
                               successors. Specifically, we found most of the costs for the
                               development and training of potential successors was
                               maintained at the vice president level with no oversight by



                                                 10
                                       Restricted Information
Postal Service’s Corporate                                                                              LH-AR-02-004
 Succession Planning Process


                                    headquarters officials who manage the corporate
                                    succession planning process. Although we could not
                                    determine all the costs, we found from FYs 1999 through
                                    2001 at least $7.6 million was expended for the
                                    development of potential successors.

                                    According to the American Productivity & Quality Center
                                    best practice report, successful companies oversee the
                                    development of potential successors to ensure business
                                    needs are met and to track the performance and
                                    development needs of potential successors. We also found
                                    Office of Personnel Management guidance that states in
                                    order to meet institutional needs, long term plans are
                                    needed to provide training, mentoring, and developmental
                                    assignments for potential successors. In addition, effective
                                    management controls require the use of sound
                                    methodologies for budgeting, recording, and reporting costs
                                    to obtain the information and financial data needed to
                                    manage programs and operations. For example, two of the
                                    four phases of the Postal Service’s CustomerPerfect!9
                                    Management Cycle are deploying resources (budgeting),
                                    and reviewing and assessing progress toward goals using
                                    accounting and financial data.

                                    Postal Service officials told us that oversight responsibility
                                    for potential successor development and associated training
                                    costs had been delegated to the vice presidents. They also
                                    told us that the individual executive development
                                    assessments and the Executive Competency Model were
                                    adequate guidance to vice presidents regarding the training
                                    that should be provided to potential successors. In addition,
                                    the manager, corporate personnel management stated it
                                    would be too difficult for headquarters to track all the
                                    training courses and associated costs for over
                                    approximately 1,500 potential successors for the purpose of
                                    ensuring vice presidents were meeting their training needs.
                                    The senior vice president, Human Resources, told us
                                    however, if this information were available, it would be
                                    monitored and analyzed at the headquarters level.




9
 The CustomerPerfect! Management Cycle of planning, implementation, and review consists of four distinct phases
of activities intended to give direction to the organization and to build and sustain improved performance against the
goals that are set.



                                                         11
                                               Restricted Information
Postal Service’s Corporate                                                        LH-AR-02-004
 Succession Planning Process



                               According to the vice president, Diversity Development, the
                               advantages of a centralized information management
                               system were recognized and an attempt was made to
                               establish a database at the headquarters level that would
                               manage the individual training of potential successors. We
                               determined that contractors were paid approximately
                               $100,000 to implement the Development Tracking System.
                               However the vice president, Diversity Development, said the
                               system was never completed due to a temporary hold on
                               further development to ensure alignment with other
                               business requirements and systems development changes,
                               and a determination of whether the Postal Service could
                               support the system with internal resources.

                               We believe the lack of a centralized information
                               management system resulted in Postal Service
                               Headquarters officials not knowing if adequate training was
                               provided to prepare potential successors to compete for
                               Postal Career Executive Service positions. In addition, the
                               Postal Service could not determine if the training was
                               proportionately distributed based on individual needs and
                               whether potential successors were being developed to meet
                               business goals.

                               Furthermore, we believe a significant amount of resources
                               have been expended without a proper and accurate
                               accounting to determine the program costs. Accounting and
                               financial information not properly recorded and classified
                               can result in distorted reporting and unreliable data used to
                               manage programs and operations.

 Recommendation                We recommend the senior vice president, Human
                               Resources:

                                  5. Establish a centralized information management
                                     system to monitor and analyze potential successor
                                     training and its associated costs and to determine if:

                                       •   Potential successor development needs are
                                           met.




                                                 12
                                       Restricted Information
Postal Service’s Corporate                                                         LH-AR-02-004
 Succession Planning Process


                                        •   Training is proportionately distributed among
                                            successors.

                                        •   Overall business goals are achieved.

 Management’s                  Management agreed with the finding and with the
 Comments                      recommendation to establish a centralized information
                               management system to monitor and analyze potential
                               successor training and its associated costs. They stated
                               that a centralized system had been developed which
                               included information relative to successor training and
                               costs. They did not believe, however, that training should
                               be proportionately distributed among successors, stating
                               some successors already possess the requisite skills to
                               perform the position and, therefore, require little or no
                               training; while others may require moderate to substantial
                               training experience.

 Evaluation of                 Management’s planned actions are responsive. We agree
 Management’s                  that individuals identified as successors vary in terms of
 Comments                      training needs. The intent of the recommendation was to
                               ensure that individuals with similar training needs received
                               similar training. We believe this is important because
                               potential successor development had been delegated to
                               individual vice presidents who were not responsible for
                               ensuring equitable training Postal Service-wide.

 Recommendation                We recommend the senior vice president, Human
                               Resources:

                                  6. Determine if the continued implementation of the
                                     Development Tracking System is cost effective and
                                     adequate to address the requirements set out in
                                     recommendation 5.

 Management’s                  Management agreed with the finding and recommendation
 Comments                      and stated that the Development Tracking System would be
                               superceded by a new corporate succession system to be
                               tested by headquarters users and then migrated to the field
                               by the end of FY 2003.

 Evaluation of                 Management’s planned actions to the recommendation are
 Management’s                  responsive and meet the intent of our recommendation.
 Comments




                                                 13
                                       Restricted Information
Postal Service’s Corporate                                                                             LH-AR-02-004
 Succession Planning Process


 Diversity Programs                We found the Postal Service had implemented diversity
 Were Implemented                  programs into the corporate succession planning process
                                   that had resulted in a pool of potential successors that was
                                   representative of the executive and administrative schedule
                                   levels 22 to 26. We also found selections from the potential
                                   successor pool for the Postal Career Executive Service
                                   positions were representative of that pool. These efforts
                                   resulted in a slight increase of white female representation
                                   in the Postal Career Executive Service, and little to no
                                   change (plus or minus) in minority categories. However,
                                   when compared to the civilian labor force and the Postal
                                   Service workforce, we believe women and minority
                                   representation at the Postal Career Executive Service level
                                   could be improved.

                                   The postmaster general stated in the Postal Service’s
                                   Diversity Policy issued October 18, 2001, “We will focus on
                                   diversity in our recruitment, selection, and retention of
                                   employees. When developing succession plans and
                                   making promotions, we will strongly support diversity,
                                   thereby creating an even playing field for all employees.”

                                   The Postal Service’s Diversity Development Office
                                   monitored Postal Service diversity trends and provided
                                   feedback to vice presidents regarding noteworthy changes
                                   in those trends. The office also conducted on-site reviews
                                   of achievements in diversity and made recommendations
                                   based on those reviews. In addition, the Postal Service’s
                                   annual performance and strategic plans required that all
                                   executives set goals for activities they undertake to promote
                                   diversity within their individual performance evaluations. An
                                   executive’s achievement of these diversity goals10 was
                                   included as an element to be considered in determining
                                   their overall performance.

                                   We found that for FY 2001, the Postal Service had
                                   established a diverse pool of approximately 1,500 potential
                                   successors of which almost half were represented by
                                   women and minority groups. When compared to the Postal
                                   Service’s executive and administrative schedule levels 22 to
                                   26 and the Postal Career Executive Service workforce, this


10
   These goals included developing and implementing recruiting and hiring strategies for increasing the employability
of women, minorities, and people with disabilities and ensuring that developmental assignments and training
opportunities were provided to diverse groups to enhance their career development.



                                                         14
                                               Restricted Information
Postal Service’s Corporate                                                                           LH-AR-02-004
 Succession Planning Process



                                     pool was more diverse for white females and almost as
                                     diverse for all minority categories. (See Appendix B.)

                                     In addition, Appendix C shows that the Postal Service’s
                                     promotions to fill Postal Career Executive Service positions
                                     were as diverse as the pool the selections were made from.
                                     For example, the average selection of white females from
                                     FYs 1999 to 2001 was 25.6 percent, while they represented
                                     only 20.2 percent of the FY 2001 potential successors pool.
                                     However, the average selection from several minority
                                     categories, such as Hispanic females (.4 percent) and Asian
                                     American pacific islander males (.9 percent), were less than
                                     their percentage representation (1.1 percent and
                                     1.9 percent respectively) within the FY 2001 potential
                                     successor pool.

                                     We found the largest difference in the Postal Career
                                     Executive Service diversity workforce statistics since
                                     FY 1999, occurred in the white female category. For
                                     example, from FYs 1999 to 2001 the representation of
                                     women and minorities increased by 4.3 percentage points.
                                     This represented a 3.9 percentage point increase in white
                                     females and a gain of .4 percentage points in minorities.
                                     (See Appendix D.) Also, according to a GAO study11 on
                                     the Postal Career Executive Service workforce, from
                                     FYs 1995 through 1999, women and minority representation
                                     increased by 4.2 percentage points. This represented a
                                     4.4 percentage point increase in white females and a loss of
                                     .2 percentage points in minorities. Thus during FYs 1995
                                     though 2001, minority representation at the Postal Career
                                     Executive Service level has remained fairly constant, with
                                     little to no change in representation.

                                     Using the information reported quarterly by the Diversity
                                     Development Office,12 however, we found that women and
                                     minority representation at the Postal Career Executive
                                     Service level could be improved. Specifically, the Postal
                                     Service reported that for FY 2001, most women and
                                     minority groups were under-represented in the Postal
                                     Career Executive Service when compared to both the
                                                            13




11
     U.S. Postal Service: Diversity in the Postal Career Executive Service, (GAO/GGD-00-76, March 2000).
12
     U.S. Postal Service Workforce Profile, FY 2001 End of Year Report.



                                                         15
                                               Restricted Information
Postal Service’s Corporate                                                                           LH-AR-02-004
 Succession Planning Process


                                   civilian labor force13 and the Postal Service workforce. For
                                   example, white and black females were underrepresented
                                   the most when compared to the civilian labor force and the
                                   Postal Service workforce, respectively. This comparison
                                   can be found in Appendix E.

                                   The vice president, Diversity Development, acknowledged
                                   there was under representation of women and some
                                   minorities in the Postal Career Executive Service when
                                   compared to the civilian labor force. He told us that his
                                   office continually works with Postal Service officials to
                                   identify barriers that have prevented achievement of
                                   diversity at all levels of the organization. He added,
                                   however, that he believes the fairer comparison of Postal
                                   Career Executive Service diversity statistics, is the
                                   comparison to the pool of employees that they are selected
                                   from. He stated that the Diversity Development Office
                                   published their diversity statistics using the civilian labor
                                   force as a comparison, in order to satisfy Equal Employment
                                   Opportunity Commission regulations, which required that
                                   comparison.

 Recommendation                    We recommend the senior vice president, Human
                                   Resources:

                                       7. Continue to improve diversity statistics by identifying
                                          the barriers that limit improvements in diversity in the
                                          Postal Career Executive Service, and taking the
                                          appropriate action to remove the barriers.

 Management’s                      Management agreed with some of the findings and agreed
 Comments                          with the recommendation. They stated the Postal Service
                                   was proud of their diversity accomplishments and would
                                   continue to ensure inclusiveness in all its personnel
                                   operations. They disagreed, however, with our
                                   comparisons of the Postal Career Executive Service
                                   workforce to the civilian labor force and Postal Service
                                   workforce and our faulting the Postal Service for the
                                   disparities. They stated the comparisons were
                                   “unnecessary, inappropriate, and meaningless.” They
                                   further stated our use of the two indexes were inconsistent
                                   with our correct use of the feeder pool of executive and

13
  Civilian Labor Force statistics are used by the Postal Service as a benchmark to compare against their workforce
diversity statistics.



                                                        16
                                              Restricted Information
Postal Service’s Corporate                                                                       LH-AR-02-004
 Succession Planning Process


                                    administrative schedule levels 22-26. They also stated that
                                    the Equal Employment Opportunity Commission had
                                    criticized the General Accounting Office for using the civilian
                                    labor force index in their report regarding the Senior
                                    Executive Service.14

                                    The Postal Service also disagreed with our “assertions” that
                                    “little or no progress” had been made in women or minority
                                    representation. They stated that during the period January
                                    2000 through June 2002, the number of executive and
                                    administrative service level 22 and above positions declined
                                    by 6.2 percent, while the percentage of women and
                                    minorities in those positions increased by approximately 1
                                    and 2 percent, respectively. They also stated that these
                                    increases were very significant.

 Evaluation of                      Management’s planned actions are responsive to the intent
 Management’s                       of our recommendation. However, we do not agree with
 Comments                           their comments that our statistical comparisons were
                                    incorrect. We also do not agree with management’s use of
                                    incomparable information to rebut our findings.

                                    We intentionally provided a broad spectrum of statistical
                                    comparisons that could be used when determining diversity
                                    in the workplace. As stated in our report, we used the
                                    civilian labor force statistics, because they were required
                                    under Equal Employment Opportunity Commission
                                    regulations. We also used the civilian labor force and
                                    Postal Service workforce statistics because they were used
                                    by the Postal Service in their Diversity Development Office’s
                                    quarterly Workforce Profile report. This report was a
                                    resource for Postal Service managers when assessing the
                                    representation of women and minorities in the workforce.
                                    The report specifically states, “The civilian labor force and
                                    the postal workforce percentages for each employee group
                                    are provided at the top of selected statistical tables for
                                    comparison against the participation of the employee
                                    groups.”

                                    Management’s rebuttal to our finding that there was little to
                                    no change (plus or minus) in minority categories, and that
                                    women and minority representation could be improved, was
                                    based on information that was not comparable to the

14
     Senior Executive Service: Diversity Improved in the Past Decade, (GAO-01-377, March 2001)



                                                        17
                                              Restricted Information
Postal Service’s Corporate                                                        LH-AR-02-004
 Succession Planning Process


                               information used in our report. Management used a
                               different time period, different executive and administrative
                               schedule levels, and different minority categories.
                               Specifically, management stated that between January
                               2000 and June 2002, there was an increase in women and
                               minority representation at the executive and administrative
                               service levels 22 and above. Our report however, used the
                               period FY 1999 through 2001, and applied to white female
                               and minority categories represented at the Postal Career
                               Executive Service level.




                                                 18
                                       Restricted Information
Postal Service’s Corporate                                                   LH-AR-02-004
 Succession Planning Process


                  APPENDIX A. SCOPE AND METHODOLOGY

To evaluate the corporate succession planning process, the OIG reviewed how Postal
Service management:

   •   Defined the succession plan’s goals and strategies.
   •   Selected potential successors.
   •   Assessed development needs of potential successors.
   •   Addressed development needs of potential successors.
   •   Assessed the succession plan’s effectiveness.
   •   Adapted the succession plan to change.
   •   Implemented diversity programs into the planning process.

We also reviewed Postal Career Executive Service positions (levels 01 and 02) at
Postal Service Headquarters and area levels for FYs 1999 through 2001.

To determine if the Postal Service was effectively managing its corporate succession
planning process we interviewed Postal Service executives, officers, and specialists
from Human Resources, Diversity Development, and Finance offices. In addition, we
reviewed documentation pertaining to the corporate succession planning process, which
included information about the Postal Service’s Advanced Leadership Program and
5-year Strategic Plan. We also reviewed GAO reports, federal guidance and
regulations, and we analyzed and independently tested the validity and reliability of the
Postal Service’s list of potential and actual successors, as well as graduates of the
Advanced Leadership Program for FYs 1999 through 2001.

To determine best practices related to the corporate succession planning process we
benchmarked against companies identified as best practice partners in the American
Productivity & Quality Center’s 1999 benchmarking study regarding leadership
development. The information used in the study was obtained through surveys, detailed
questionnaires, and on-site interviews. The study scope covered the following areas:
(1) creating the leadership development process, (2) identifying the leadership pool,
(3) engaging future leaders, and (4) understanding the effects of leadership
development.

To identify the best features of a corporate succession planning process we reviewed
the following:

   •   Office of Personnel Management’s Executive Succession Planning Tool Kit.

   •   Government Executive Core Qualifications for Senior Executive Service
       candidates.




                                             19
                                   Restricted Information
Postal Service’s Corporate                                                  LH-AR-02-004
 Succession Planning Process



   •   Office of Personnel Management’s Code of Federal Regulations for Candidate
       Development Programs.

   •   Government Performance and Results Act of 1993.

We also reviewed the Postal Service’s Executive Competency Model for leaders, how
candidates were identified and developed for leadership and the assessment process of
successful organizations.

To determine whether the Postal Service was effectively implementing diversity
programs into its corporate succession planning process, we identified the Postal
Service’s diversity programs in effect during the period FYs 1999 through 2001, and
analyzed quarterly performance diversity reports showing the profiles of the Postal
Career Executive Service, the potential successor pool, the total Postal Service
workforce, the executive and administrative schedule levels 22 and above, and the
civilian labor force for FYs 1999 through 2001. In addition, we analyzed the diversity
statistics for executive and administrative schedule employees promoted to the Postal
Career Executive Service during FYs 1999 through 2001. We did not independently
determine the validity and reliability of this data from computer-based systems.
However, we did have the Postal Service confirm the correctness of the Postal Career
Executive Service selection data that we extracted from the Postal Service’s workforce
data. We also interviewed the vice president, Diversity Development, and several staff
members of the Postal Service’s Diversity Development Office.




                                            20
                                  Restricted Information
Postal Service’s Corporate                                                    LH-AR-02-004
 Succession Planning Process


                                APPENDIX B

    COMPARISON OF THE FY 2001 DIVERSITY STATISTICS OF THE
      POTENTIAL SUCCESSOR POOL TO THE EXECUTIVE AND
    ADMINISTRATIVE SCHEDULE LEVELS 22-26 AND THE POSTAL
           CAREER EXECUTIVE SERVICE WORKFORCE


                                                           Executive and Postal Career
                                            Potential Administrative Executive
Equal Employment                           Successor          Schedule        Service
Opportunity Categories                         Pool         Levels 22-26 Workforce
                                            ----------------(in percentages)---------------
White Male                                           55.4             57.7             60.6
White Female                                         20.2             15.9             18.0
Black Male                                            8.8              9.3               8.6
Black Female                                          6.5              7.1               5.0
Hispanic Male                                         4.2              4.3               4.8
Hispanic Female                                       1.1              1.1               0.6
Asian American Pacific Islander Male                  1.9              2.7               1.2
Asian American Pacific Islander Female                0.9              1.4               0.6
American Indian Alaskan Native Male                   0.3              0.4               0.5
American Indian Alaskan Native Female                 0.5              0.2               0.1

Note: Percentages may not add to 100 due to rounding




                                         21
                               Restricted Information
Postal Service’s Corporate                                                    LH-AR-02-004
 Succession Planning Process


                                APPENDIX C

  COMPARISON OF THE DIVERSITY STATISTICS OF THE POSTAL
     SERVICE EXECUTIVE AND ADMINISTRATIVE SCHEDULE
EMPLOYEES PROMOTED TO POSTAL CAREER EXECUTIVE SERVICE
 POSITIONS IN FY 1999 THROUGH 2001 TO THE FY 2001 POTENTIAL
                       SUCCESSOR POOL



                                                                  Average
                                            Promotions to selection            FY 2001
                                            Fill Positions           for       Potential
Equal Employment                            FY FY FY               3-year     Successor
Opportunity Categories                     1999 2000 2001 period                 Pool
                                             ---------------(in percentages)---------------
White Male                                  47.9 45.4 49.2               47.5           55.4
White Female                                19.7 32.6 24.6               25.6           20.2
Black Male                                    9.9 8.1 7.7                 8.6            8.8
Black Female                                14.1 7.0 4.6                  8.6            6.5
Hispanic Male                                 8.5 3.5 6.2                 6.0            4.2
Hispanic Female                               0.0 1.2 0.0                 0.4            1.1
Asian American Pacific Islander Male          0.0 1.2 1.5                 0.9            1.9
Asian American Pacific Islander Female        0.0 0.0 1.5                 0.5            0.9
American Indian Alaskan Native Male           0.0 1.2 3.1                 1.4            0.3
American Indian Alaskan Native Female         0.0 0.0 1.5                 0.5            0.5

Note: Percentages may not add to 100 due to rounding




                                         22
                               Restricted Information
Postal Service’s Corporate                                                    LH-AR-02-004
 Succession Planning Process


                                APPENDIX D

 COMPARISON OF THE DIVERSITY STATISTICS FOR THE PERCENT
OF POSTAL CAREER EXECUTIVE SERVICE WORKFORCE OCCUPIED
               BY WOMEN AND MINORITIES
                  FY 1999 THROUGH 2001


                                                   Percent of Occupied Positions
Equal Employment                                 FY       FY      FY   Difference from
Opportunity Categories                          1999 2000 2001 FY 1999 to 2001
                                                 ------------(in percentages)------------
White Male                                       64.9 61.9 60.6                        -4.3
White Female                                     14.1 17.1 18.0                         3.9
Black Male                                         8.9      8.7    8.6                 -0.3
Black Female                                       5.0      5.1    5.0                  0.0
Hispanic Male                                      4.8      5.0    4.8                  0.0
Hispanic Female                                    0.5      0.6    0.6                  0.1
Asian American Pacific Islander Male               1.1      1.0    1.2                  0.1
Asian American Pacific Islander Female             0.5      0.5    0.6                  0.1
American Indian Alaskan Native Male                0.1      0.2    0.5                  0.4
American Indian Alaskan Native Female              0.1      0.0    0.1                  0.0
Total Percentage of Women and Minorities         35.1 38.1 39.4                         4.3

Note: Percentages may not add to 100 due to rounding




                                         23
                               Restricted Information
Postal Service’s Corporate                                                     LH-AR-02-004
 Succession Planning Process


                                APPENDIX E

 COMPARISON OF THE FY 2001 DIVERSITY STATISTICS OF POSTAL
   CAREER EXECUTIVE SERVICE WORKFORCE TO THE CIVILIAN
      LABOR FORCE AND POSTAL SERVICE WORKFORCE

                                           Postal Career
                                            Executive              Postal
Equal Employment                             Service     Civilian  Service
Opportunity Categories                      Workforce Labor Force Workforce

                                             ---------------(in percentages)---------------
White Male                                                60.6          39.1           41.5
White Female                                              18.0          33.4           22.4
Black Male                                                  8.6          5.2           11.3
Black Female                                                5.0          6.0           10.1
Hispanic Male                                               4.8          6.8             5.1
Hispanic Female                                             0.6          5.0             2.3
Asian American Pacific Islander Male                        1.2          2.0             4.4
Asian American Pacific Islander Female                      0.6          1.8             2.5
American Indian Alaskan Native Male                         0.5          0.5             0.3
American Indian Alaskan Native Female                       0.1          0.4             0.3

Note: Percentages may not add to 100 due to rounding




                                         24
                               Restricted Information
Postal Service’s Corporate                              LH-AR-02-004
 Succession Planning Process


                  APPENDIX F. MANAGEMENT’S COMMENTS




                                         25
                               Restricted Information
Postal Service’s Corporate                              LH-AR-02-004
 Succession Planning Process




                                         26
                               Restricted Information
Postal Service’s Corporate                              LH-AR-02-004
 Succession Planning Process




                                         27
                               Restricted Information
Postal Service’s Corporate                              LH-AR-02-004
 Succession Planning Process




                                         28
                               Restricted Information
Postal Service’s Corporate                              LH-AR-02-004
 Succession Planning Process




                                         29
                               Restricted Information
Postal Service’s Corporate                              LH-AR-02-004
 Succession Planning Process




                                         30
                               Restricted Information
Postal Service’s Corporate                              LH-AR-02-004
 Succession Planning Process




                                         31
                               Restricted Information
